           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  THE SOCIAL SECURITY ADMINISTRATION’S
     USE OF AMERICAN RECOVERY AND
    REINVESTMENT ACT OF 2009 FUNDS TO
ADMINISTER ECONOMIC RECOVERY PAYMENTS
     September 2010   A-06-10-10124




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 30, 2010                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Use of American Recovery and Reinvestment Act
           of 2009 Funds to Administer Economic Recovery Payments (A-06-10-10124)


           OBJECTIVE
           Our objective was to determine whether administrative costs incurred to administer
           economic recovery payments 1 (ERP), authorized as part of the American Recovery and
           Reinvestment Act of 2009 (ARRA), were valid and appropriate.

           BACKGROUND
           On February 17, 2009, ARRA was signed into law. 2 ARRA provided for a one-time
           payment of $250 to certain Social Security beneficiaries and Supplemental Security
           Income recipients whose address of record was 1 of the 50 States, the District of
           Columbia, Puerto Rico, Guam, the U.S. Virgin Islands, American Samoa, or the
           Northern Mariana Islands. 3 The Social Security Administration (SSA) was required to
           identify the individuals entitled to receive the payments and provide the Secretary of the
           Treasury with information required to disburse the payments.4 ARRA provided SSA up
           to $90 million for costs incurred in carrying out the ERP section 5 of ARRA and the
           Department of the Treasury (Treasury) up to $131 million for administrative costs


           1
               These payments are also referred to as “stimulus payments” or “one-time payments.”
           2
               Pub. L. No. 111-5, February 17, 2009.
           3
            ARRA §§ 2201(a)(1)(A) and (a)(2). Eligible individuals generally include all (1) Old-Age, Survivors and
           Disability Insurance beneficiaries except children and Medicare-only beneficiaries and (2) Supplemental
           Security Income recipients except individuals receiving Medicaid in care facilities. See ARRA
           § 2201(a)(1)(B).
           4
            ARRA § 2201(b). Individuals eligible for benefits for any of the 3 months before the month of enactment
           of ARRA (that is, November 2008, December 2008, and January 2009) may receive the one-time
           payment. ARRA § 2201(a)(1)(A).
           5
               ARRA § 2201.
Page 2 - The Commissioner


incurred in carrying out specified provisions of ARRA. 6 From May through
December 2009, SSA certified ERPs for approximately 52 million individuals totaling
about $13 billion.

In July 2009, we issued a report, Administrative Expenses Incurred to Provide
Economic Recovery Payments, that assessed SSA’s plans to account for the
$90 million provided to administer the ERPs. In that report, we concluded that SSA was
positioned to account for ERP-related administrative expenditures in a manner that
would allow for transparency and accountability of ARRA funds. We found that SSA
took action in accordance with Office of Management and Budget guidance, identified
potential administrative costs to provide the ERP, and implemented plans to track and
report the identified costs. We also reported that SSA consolidated informational
mailings and reduced overall estimated administrative expenditures by approximately
$20 million. See Appendix B for information on the scope and methodology of this
review.

RESULTS OF REVIEW
Administrative costs incurred to administer ERPs were generally valid and appropriate.
SSA has spent considerably less than the $90 million provided for administrative costs
related to the issuance of the ERPs. As of February 2010, SSA had obligated
approximately $39 million in ARRA funds to administer the ERPs, and by the end of
Fiscal Year (FY) 2011, the Agency could return as much as $50 million in unused funds
to Treasury.

            COMPARISON OF SSA ESTIMATED EXPENSES VERSUS ACTUAL
                                               (in millions)




                 Systems-Related Costs




               Printing/Postage Expense




               Staff Time/Inquiry Costs



                                          $-         $20          $40   $60
                                                 Estimated     Actual




6
    ARRA §§ 2201(e)(1) and (2)(B).
Page 3 - The Commissioner


The vast majority of expenses charged against the appropriation was valid and
supported. However, we identified approximately $520,000 in ERP-related
administrative costs that SSA incurred but did not charge to the appropriation. We also
identified a relatively small expenditure, totaling approximately $45,000, that SSA
should not have charged against the appropriation. Finally, SSA implemented controls
to reduce ERP duplicate check negotiations, but did not incorporate the changes into
cost estimates used to justify accounting system modifications needed to monitor and
collect related overpayments.

ERP-RELATED TRAINING COSTS NOT CHARGED TO ARRA APPROPRIATION

SSA incurred approximately $520,000 in personnel costs related to post-ERP customer
service-related training but did not charge the costs against the ARRA administrative
appropriation. SSA provided separate training sessions for its employees regarding
handling customer inquiries both before and after the ERPs were issued. To quantify
these expenditures, SSA used a formula based on the length of training time and the
number of individuals in key functional areas7 who attended the training. SSA correctly
charged the administrative appropriation for costs related to training conducted prior to
ERP issuance; however, SSA did not charge the appropriation for additional costs
incurred to provide the post-ERP training session. SSA confirmed this oversight and
reclassified these expenditures in March 2010.

SSA PERSONNEL STAFF TIME FOR PLANNING POSSIBLE SECOND ERP

SSA improperly charged the ARRA administrative appropriation for approximately
$45,000 of staff time expended to plan for a hypothetical second round of stimulus
payments. The Office of Systems tracked its employee staff hours related to ARRA
ERP activity via specific codes established in its Resource Accounting System.
According to SSA’s records, Systems staff spent 699.25 hours for non-developmental
work spent planning for a potential second round of ERPs. We believe these
expenditures were not in accordance with the intent of ARRA, and that SSA should not
have charged them against the ARRA administrative appropriation. Our Office of
Counsel to the Inspector General reviewed ARRA and determined no authority exists in
ARRA to permit SSA to charge staff hours for planning a potential second ERP against
the administrative funds provided by ARRA. Based on our analysis, SSA took steps in
July 2010 to reclassify these staff hours.

ACCOUNTING SYSTEM MODIFICATION EXPENDITURE

In May 2009, SSA used ARRA funds to award a $1.25 million contract for accounting
system modifications needed to monitor and collect amounts due from individuals who
received ERPs they were not entitled to receive. SSA approved this expenditure based

7
  The key functional areas identified by SSA were all offices or employees under the Deputy
Commissioner for Operations. They included field offices, teleservice centers, select benefit authorizers
in the program service centers, customer service technicians, and for post-ERP training only, benefit
technical examiners and development support examiners responsible for handling check non-receipts.
Page 4 - The Commissioner


on estimates that 15,000-20,000 ERPs (worth $3.75 million to $5 million) would be paid
incorrectly—that is, individuals would allege non-receipt of ERP checks and cash both
the original and replacement checks. According to SSA’s Office of the General
Counsel, because the ERPs were not considered benefit payments, related double-
check negotiation overpayments could not be collected through SSA’s normal debt
collection process. Instead, SSA paid a contractor to modify its administrative debt
collection process to handle this workload.

Prior to contract award, SSA implemented controls to mitigate ERP double-check
negotiations by instructing Treasury to check the status of the original ERP before
issuing replacement ERPs. This action likely minimized the number of double-check
negotiations, greatly reducing potential amounts requiring collection. However, SSA did
not revise its estimate of the number incorrect ERPs. As of May 2010, the Agency
identified only about $220,000 that required collection. 8

CONCLUSION AND RECOMMENDATIONS
Administrative costs incurred to administer ERPs were generally valid and appropriate.
At the time of our audit, SSA had spent only about $39 of the $90 million appropriated to
fund administrative costs related to issuance of ERPs and could return as much as
$50 million in unused funds to the Treasury by the end of FY 2011. We identified
ERP-related training expenses totaling $520,000 that SSA should have charged, and a
small expenditure totaling about $45,000 that SSA should not have charged, against the
administrative appropriation. SSA took prompt action to reclassify both expenditures.
Also, SSA implemented controls to reduce ERP double check negotiations, but did not
incorporate these changes into cost estimates used to justify accounting system
modifications.

As such, we recommend that SSA ensure cost-benefit analyses for accounting system
modifications incorporate all relevant factors into the decision-making process.

AGENCY COMMENTS
SSA agreed with the recommendation. Specifically, where cost-benefit analyses for
accounting system modifications are appropriate, the Agency will consider all relevant
factors. SSA also informed us that on August 10, 2010, the President signed Public
Law 111-226, which rescinded $47 million of SSA’s unused ARRA funds. The full text
of SSA’s comments is included in Appendix C.




                                                       Patrick P. O’Carroll, Jr.


8
    As of May 2010, actual collections on this debt totaled only about $15,000.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ARRA          American Recovery and Reinvestment Act of 2009
ERP           Economic Recovery Payment
FY            Fiscal Year
Pub. L. No.   Public Law Number
SSA           Social Security Administration
Treasury      Department of the Treasury
                                                                     Appendix B

Scope and Methodology
We reviewed the administrative expenses incurred by the Social Security Administration
(SSA) to administer the economic recovery payments (ERP) from February 2009
through February 2010. This time period included expenses incurred in Fiscal
Year (FY) 2009 and part of FY 2010. To achieve our objectives, we:

•   Reviewed applicable sections of the American Recovery and Reinvestment Act of
    2009 (ARRA).

•   Reviewed Office of Management and Budget (OMB) Memorandums M-09-10, Initial
    Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
    February 18, 2009, and M-09-15, Updated Implementing Guidance for the American
    Recovery and Reinvestment Act of 2009, April 3, 2009.

•   Reviewed the SSA Agency-wide and Program Specific Plans submitted to OMB.

•   Reviewed SSA accounting and administrative instruction manuals.

•   Interviewed Headquarters personnel in the Offices of Financial Policy and
    Operations, Systems, and Operations who were associated with tracking,
    monitoring, or reporting the administrative expenses related to the ERP.

•   Obtained and reviewed all invoices and contracts related to ARRA ERP expenses.

•   Identified SSA’s controls for tracking and monitoring ARRA ERP administrative
    expenses.

We performed our review from February to June 2010 in Dallas, Texas. We tested the
data obtained for our audit and determined it to be sufficiently reliable to meet our
objectives. The entities audited were the Offices of the Deputy Commissioners for
Budget, Finance and Management; Operations; and Systems. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      September 29, 2010                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn/s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "SSA's Use of American Recovery and
           Reinvestment Act of 2009 Funds to Administer Economic Recovery Payments"
           (A-06-10-10124)--INFORMATION


           Thank you for the opportunity to review the subject report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at extension 66975.

           Attachment:
           SSA Response




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, THE SOCIAL SECURITY ADMINISTRATION’S USE OF AMERICAN
RECOVERY AND REINVESTMENT ACT OF 2009 FUNDS TO ADMINISTER
ECONOMIC RECOVERY PAYMENTS (A-06-10-10124)

Thank you for the opportunity to review the draft report. We offer the following.

PAGE SPECIFIC COMMENTS

Page 2, 2nd full paragraph, last sentence reads in part:

“the Agency could return as much as $50 million in unused funds to Treasury.”

Comment

On August 10, 2010, the President signed Public Law 111-226 which rescinded $47 million.
Specifically, title III, Section 318 of the law states, “Of the funds appropriated for the
Commissioner of Social Security under section 2201(e)(2)(B) in title II of division B of Public
Law 111–5, $47,000,000 are rescinded.”

We will reflect this in our financial statements.

Conclusions and Recommendations, next to last sentence reads:

“Also, SSA implemented controls to reduce ERP double check negotiations, but did not
incorporate these changes into cost estimates used to justify accounting system modifications.”

Comment

We processed economic recovery payments (ERP) outside existing systems; so, we modified our
accounting system and used it in managing ERP overpayment and collection activity. Before
modifying our systems, we considered all relevant factors, conducted a comprehensive cost-
benefit analysis (CBA), and made decisions accordingly. We also considered the scenario of
double ERPs being less than our initial estimate of 15,000-20,000 before we approved the
accounting system modification. We were aware that fixed costs to modify the system might
exceed the potential debt; but we considered other “relevant factors” and did not base our
decision solely on a dollars and cents CBA. Because we were prudent in working with Treasury
to avoid double payments before they occurred, the number of double payments was smaller than
we had anticipated when we first calculated the CBA. We believe that is a good thing.

Furthermore, Congress expected that we would do what we could to avoid paying beneficiaries
two ERPs. Section 2201(a)(3) of the American Reinvestment and Recovery Act, PL 111-5, reads:

“NO DOUBLE PAYMENTS -- an individual shall be paid only 1 payment under this section,
regardless of whether the individual is entitled to, or eligible for, more than 1 benefit”



                                                    C-2
While this section of the law specifically prohibits double payments to beneficiaries covered by
more than one Federal program, the congressional intent is clear that a person may receive only
one payment. We considered this intent as well as our stewardship responsibilities to pursue
reimbursement of duplicate payments in all of our programs.

RESPONSE TO RECOMMENDATION

Recommendation

Ensure cost-benefit analyses for accounting system modifications incorporate all relevant factors
into the decision-making process.

Response

Where CBAs are appropriate, we will consider all relevant factors. We conducted a CBA in this
case and made proper decisions based on the best information available at that time. However,
CBAs are not always appropriate for every modification. Accounting systems must meet strict
Federal requirements; therefore, every modification does not necessarily produce a classic return
on investment. They must comply with generally accepted accounting standards, and cost is
only one issue.

We consider all relevant factors when making our decisions, and we are leaders in the Federal
financial community. On June 28, 2010, the Office of Management and Budget (OMB) issued
Memorandum 10-26, “Immediate Review of Financial Systems Information Technology (IT)
Projects.” In that memorandum, OMB announced the establishment of a “Financial Systems
Advisory Board” (FSAB) with responsibility for reviewing agencies’ proposed IT projects. On
August 20, 2010, we met with the FSAB and presented our planned activities for the next two
years. We are awaiting formal approval, but the board commented that we have a proven record
of planning for change, and that we garner value from our IT investments.

We will continue to abide by OMB and FSAB standards when making decisions about
accounting system modifications, and we will continue to conduct a formal CBA when necessary
and applicable to the proposed modification(s). This is our standard practice, and we will
continue to apply it in the future. We consider this issue closed and will take no further actions
concerning your recommendation.




                                               C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Chasity Crawley, Senior Auditor

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-10124.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
